<html>
<title> - ADVANCING U.S. INTERESTS THROUGH THE ORGANIZATION OF AMERICAN STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





  ADVANCING U.S. INTERESTS THROUGH THE ORGANIZATION OF AMERICAN STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

                           Serial No. 115-115

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-645PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere


                    PAUL COOK, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas Melito, Director, International Affairs and Trade, 
  Government Accountability Office...............................     8
Mr. Alfonso Aguilar, president and CEO, International Human 
  Rights Group...................................................    27
Mr. Peter Quilter (former secretary for administration and 
  finance, Organization of American States)......................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Paul Cook, a Representative in Congress from the 
  State of California, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     5
Mr. Thomas Melito: Prepared statement............................    10
Mr. Alfonso Aguilar: Prepared statement..........................    29
Mr. Peter Quilter: Prepared statement............................    35

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Written responses from the witnesses to questions submitted for 
  the record by the Honorable Paul Cook..........................    56

 
  ADVANCING U.S. INTERESTS THROUGH THE ORGANIZATION OF AMERICAN STATES

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Paul Cook 
(chairman of the subcommittee) presiding.
    Mr. Cook. A quorum being present, the subcommittee will 
come to order. I'd like to now recognize myself for an opening 
statement.
    The Organization of American States, or OAS, is the oldest 
multilateral regional organization in the world. As Secretary 
Tillerson recalled in his recent remarks earlier this month, 
the precursor to today's OAS began with the first international 
conference of American states in 1889, hosted by the United 
States. By the way, I was not part of their conference.
    We and 20 American states are signatories to the OAS, which 
was chartered in 1948. The Inter-American Democratic Charter 
adopted in Lima on September 11, 2001, on the very day that the 
U.S. was brutally attacked was a unified response by our 
neighbors that tyranny will not win.
    Article I of the Inter-American Democratic Charter affirms 
that the people of the Americas have a right to democracy and 
the governments have an obligation to promote and defend it.
    This is the underlying reason for the existence of the OAS 
and it is a vision that we share with our Latin American and 
Caribbean partners.
    Yet, today the OAS is composed of 35 nations in the 
Americas. The member states of an organization devoted to 
promoting democracy welcomed the Communist Cuban regime back 
into its membership in 2009 and has so far prevented the 
suspension of the Venezuelan dictatorship that has wreaked 
havoc on its people and sent hundreds of thousands of refugees 
to neighboring countries, all for some preferential financing 
and subsidized oil.
    OAS Secretary General Almagro has shown leadership in 
fighting for the Venezuelan people to reclaim their country, as 
has Peruvian President Kuczynski, in yesterday's decision to 
rescind the invitation to Venezuela to attend April's Summit of 
the Americas, a bold action in defense of democracy and human 
rights.
    Today, we need to consider the role of the OAS and other 
Inter-American organizations such as the Pan-American Health 
Organization, the Inter-American Institute for Cooperation on 
Agriculture and the Pan-American Institute of Geography and 
History toward advancing U.S. interests in the region.
    U.S.-assessed contributions to these organizations is 
nearly 60 percent of their budgets and the American people have 
an interest in knowing why we contribute money if U.S. 
investments have achieved results and if there are areas for 
reform.
    Following years of advocacy from the Foreign Affairs 
Committee for the OAS to appoint a secretary to the 
Multidimensional Security and a new inspector general, I 
commend Secretary General Almagro for filling these key 
positions.
    Conversely, the Government Accounting Office recently found 
that the U.S. faces challenges in tracking results for aid to 
Inter-American organizations and the U.S. may have difficulty 
complying with the 2013 Organization of American States 
Revitalization and Reform Act, which prioritized quarter 
reforms in the OAS so that no member state pays more than 50 
percent of the OAS' assessed fees.
    The next OAS General Assembly meeting occurs in June. I 
believe this is the time to address this issue if the OAS is 
ever going to move forward to address this financial deficit.
    The U.S. should no longer shoulder the uneven financial 
responsibilities when half of the OAS member states had quotas 
below $100,000 and quotas for 26 member states equaled less 
than 1 percent.
    Today, the OAS has an $80 million budget with four 
objectives: Promoting democracy, human rights, development, and 
regional security.
    OAS electoral missions played critical roles in 
safeguarding the electoral process in the hemisphere and this 
year 10 countries have requested OAS observation missions.
    This is no small thing when the region will be holding six 
Presidential elections and regional confidence in democracy is 
at an all-time low. The OAS political missions like the OAS 
Mission Against Corruption and Impunity in Honduras assist 
countries with important anti-corruption efforts.
    The OAS Inter-American Committee Against Terrorism and 
Cybersecurity Program prioritizes cybersecurity and terrorism 
finance prevention efforts.
    Yet, for all these efforts, some say that OAS is 
overstretched and underfunded, lacking clarity about its 
missions. Others laud the efforts by the OAS Inter-American 
Commission on Human Rights and Inter-American Court on Human 
Rights but question whether these entities respect the members, 
states, sovereignty, and domestic rule of law.
    In addition, the Inter-American Organization I mentioned 
earlier all receive U.S. funding and these entities support 
work that is significant to many member states.
    However, some have raised concerns about these efforts 
along with OAS efforts related to scholarships that lead to 
overreaching mandates and siphon away resources from other 
critical priorities.
    There may be ways to modernize these priorities to achieve 
greater cost savings through other entities or the Inter-
American Development Bank.
    I want to take a moment to note that the U.S. is a 30 
percent shareholder of the bank and the bank's initial 
selection to host the IDB--International Development Bank's--
60th anniversary meeting is unacceptable for the U.S. and 
others that want to see greater private sector investment and 
transparent government in the Americas.
    In conclusion, the Trump administration has named this year 
the Year of the Americas, and I believe the U.S. has a vital 
role to play in leading efforts to modernize the OAS, which 
definitely needs a new IT system, for instance, and ensuring 
that U.S. support for the OAS and Inter-American organizations 
support U.S. interests.
    To do so, United States' mission in the OAS needs an 
Ambassador and a cohesive strategy. I urge my Senate colleagues 
to move quickly to confirm President Trump's nominee, Carlos 
Trujillo.
    With that, I turn to the ranking member for his opening 
remarks, sir.
    Mr. Sires. Good afternoon. Thank you to our chairman for 
holding this timely hearing and thank you to our witnesses for 
being here today.
    The Organization for American States has been a tool to 
bring democratic members of the Western Hemisphere together 
since 1948.
    This Inter-American system has served as a forum where the 
U.S. can work with its neighbors to strengthen the hemisphere 
while advancing our strategic interest.
    Its four objectives are democracy promotion, human rights 
protection, economic and social development, and regional 
security operation. The OAS has been able to convene actors to 
perform important duties such as election observation, hearings 
on human rights violations, and the promotion and protection of 
free press.
    Unfortunately, though, the OAS has stalled when it has come 
to taking concrete actions to hold bad actors in the regional 
accountable.
    It is clear that there are management issues, an antiquated 
payment system, structure inefficiency, and budgetary problems 
that have plagued the organization and weakened the 
institution.
    The OAS ends up needing ad hoc contributions and volunteer 
contributions to fund its programs rather than rely on its 
annual budget.
    Additionally, a coordinated and steadfast campaign led by 
Venezuela's regime to cripple the organization and grind its 
productivity to a screeching halt has only made matters worse.
    Adding insult to injury, the Trump administration has shown 
little regards for a multilateral institution and continues to 
either alienate or retreat from every relationship that U.S. 
has spent centuries investing in, the humanitarian, political, 
and economic crisis in Venezuela getting worse with each day 
that passes. Daniel Ortega and his cronies are consolidating 
power and Evo Morales, in Bolivia, has already announced that 
he will find a way to make his fourth term in office a reality.
    It is more important than ever that the regional body 
dedicated to promoting democracy and standing for human rights 
should be operating at full steam.
    Under Chairman Cook's leadership, our subcommittee has 
already examined several elections taking place in 2018 and 
protected the integrity of these elections. Promoting democracy 
and protecting human rights need to remain a top priority.
    I am eager to hear from our panel on how we can improve 
engagement with the OAS and better enable them to be the leader 
in the region.
    Thank you.
    Mr. Cook. Thank you, Congressman.
    Before I recognize you to provide your testimony, I am 
going to explain the lighting system in front of you. Actually, 
this is a statement from me that the staff puts in there so I 
won't screw this up.
    You each have 5 minutes to present your oral argument. When 
you begin, the light will turn green. When you have a minute 
left, the light will turn yellow, and when your time has 
expired the light will turn red.
    I ask that you conclude your testimony once the red lights 
comes on or you might here a little tap, tap, tap, and it's 
Edgar Allen Poe and ``The Raven.'' It's just me.
    After our witnesses testify, members will have 5 minutes to 
ask questions. I urge my colleagues to stick to the 5-minute 
rule to ensure that all members get the opportunity to ask 
questions.
    Our first witness to testify will be Mr. Thomas Melito, the 
Director of International Affairs and Trade at the United 
States Government Accountability Office, the GAO.
    Mr. Melito has been at GAO for more than 29 years. Wow. And 
in his capacity is primarily responsible for GAO's humanitarian 
assistance and multi-lateral portfolio.
    Our second witness to testify is Mr. Alphonso Aguilar, the 
president of the International Human Rights Group, which seeks 
to defend and protect political rights, religious freedom, and 
the dignity of the human person through the Inter-American 
system of human rights.
    Previously, Mr. Aguilar was the former Chief of the U.S. 
Office of Citizenship and served in numerous high-level 
government positions in the Bush administration and the 
Government of Puerto Rico. He is also a well-known policy and 
political analyst.
    Our last witness to testify will be Mr. Peter Quilter, a 
former secretary for the administration of finance at the 
Organization of American States. Most recently, he spent 2 
years as a senior fellow at the Harvard Kennedy School Ash 
Center for Democratic Governance, where he endured the snows of 
the Northeast, and before the OAS he advised the House Foreign 
Affairs Committee Ranking Member Eliot Engel on the Americas. 
He also served at the State Department under President Clinton.
    Mr. Melito, you are recognized. Thank you.
    [The prepared statement of Mr. Cook follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


STATEMENT OF MR. THOMAS MELITO, DIRECTOR, INTERNATIONAL AFFAIRS 
          AND TRADE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Melito. Chairman Cook, Ranking Member Sires, and 
members of the subcommittee, I am pleased to be here to discuss 
our work regarding U.S. assistance to Inter-American 
organizations.
    The United States belongs to several Inter-American 
organizations that, among other things, promote democracy, 
security, health care, agricultural development, and scientific 
exchange in the Western Hemisphere.
    These organizations include the Organization of American 
States, the Pan-American Health Organization, the Inter-
American Institute for Cooperation on Agriculture, and the Pan-
American Institute of Geography and History.
    The United States uses its membership in these 
organizations to promote U.S. interests in the Western 
Hemisphere.
    My testimony today summarizes the findings from our June 
2017 and December 2017 reports on U.S. assistance to Inter-
American Organizations.
    This testimony addressees three topics: First, U.S.-
assessed contributions to the four organizations; second, the 
extent to which the organization's strategic goals align with 
those of U.S. agencies; and third, the extent to which U.S. 
agencies included and documented key monitoring provisions as 
part of their assistance agreements.
    Regarding the first topic, State provides the United 
States' assessed contributions to these four organizations' 
regular budgets.
    For calendar year 2016, the United States' assessed 
contributions to these four organizations totaled over $130 
million and represented more than 50 percent of each 
organization's budget.
    In October 2013, the U.S. enacted the Organization of 
American States Revitalization and Reform Act. The reform act 
directed the Secretary of State to submit a multi-year strategy 
that establishes that no member state pays more than 50 percent 
of the OAS' assessed fees.
    Any change to OAS-assessed fees will also be reflected in 
U.S. contributions to the other three organizations. We found 
that the U.S. share of assessed contributions to the four 
organizations may be reduced in the future.
    In 2014, State submitted to Congress a strategy for 
reducing U.S.-assessed contributions below 50 percent. In 2017, 
State officials informed us that they worked with other OAS 
member states including Canada and Mexico to explore quota 
reform options.
    Soon after publication of our June 2017 report, OAS member 
states voted to draft a proposal to modify the quota structure 
to potentially reduce the maximum assessed contribution to 
below 50 percent.
    According to State officials, the modification to the quota 
structure, if approved, will be gradual and will not be 
implemented until 2019 at the earliest.
    Regarding our second topic, we found that the strategic 
goals of the four Inter-American organizations are 
predominantly aligned with the high-level strategic goals for 
the Western Hemisphere documented by State, USAID, HHS, and 
USDA.
    According to officials, the agencies all consider U.S. 
strategic goals when deciding which projects to fund at the 
four organizations.
    U.S. agencies on an ongoing basis evaluate each Inter-
American organization to ensure that U.S. and organization 
goals are aligned.
    For example, according to USAID officials, assistance 
policies and procedures ensure that all USAID-funded activities 
are linked to applicable U.S. agency strategies.
    Regarding the third topic, State, HHS, USAID, and USDA fund 
activities at three of the organizations in the form of 
assistance agreements such as grants and cooperative 
agreements.
    In our December 2017 report, we reviewed 12 such agreements 
across the four U.S. agencies and found that State and USDA did 
not include all key monitoring provisions in their agreements 
as called for by applicable guidance.
    State has taken corrective actions since the grants were 
awarded. We also found that all four agencies did not have full 
documentation of the activities required by the 12 assistance 
agreements we reviewed.
    State and HHS both initiated corrective actions prior to 
our review. Monitoring the implementation of U.S. assistance 
agreements and fully documenting the results of such monitoring 
are key management controls to help ensure that U.S. agreement 
recipients use Federal funds appropriately and effectively.
    In our December 2017 report, we recommended that USDA 
ensure inclusion of all monitoring provisions as part of their 
agreements, and two, USAID and U.S. State ensure full 
documentation of monitoring activities.
    The agencies concurred with these recommendations and 
indicated they will take actions to address them.
    Chairman Cook, Ranking Members Sires, and members of the 
subcommittee, this concludes my prepared statement. I'd be 
pleased to answer any questions you may have at this time.
    [The prepared statement of Mr. Melito follows:]
    
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               ----------                              

    Mr. Cook. Thank you very much. I must say, you were right 
on the second. I wish I could do that.
    Mr. Aguilar, you are now recognized.

     STATEMENT OF MR. ALFONSO AGUILAR, PRESIDENT AND CEO, 
                INTERNATIONAL HUMAN RIGHTS GROUP

    Mr. Aguilar. Chairman Cook, Ranking Member Sires, and 
members of the subcommittee, thank you for the opportunity to 
be part of this afternoon's hearing.
    From the outset, I would like to state my strong belief 
that a strong OAS is needed to promote democracy and human 
rights in the region.
    Yet, we must recognize that the relevance of the OAS has 
been seriously diminished. For the last 20 years, as left-
leaning autocratic regimes have taken hold in countries like 
Venezuela, Bolivia, and Nicaragua, manipulating elections, 
overturning the existing constitutional order, and violating 
fundamental, political, and human rights, the OAS hasn't been 
able to take any meaningful action to address these situations.
    It is important, therefore, that we ask what has led to 
this situation and what the U.S. can do to turn things around 
at the OAS.
    First, we must understand that the basic structure of the 
OAS as established in its charter, and its consensus approach 
to decision making inherently limits and slows down the ability 
for the organization to act swiftly or at all.
    It's very easy for a significant minority of countries to 
prevent the organization from taking action on important 
matters. A good example of this is the case of Venezuela. A 
small coalition of nations ideologically aligned with 
Venezuela, which includes countries like Bolivia, Ecuador, and 
Nicaragua, with the support of the small but numerous island 
states of the Caribbean, has prevented the deteriorating 
situation in the country from being properly addressed by the 
organization.
    The OAS hasn't been able to pass a resolution to denounce 
the abuses of the Maduro regime. This obstructionism, however, 
has generally prevailed due to the leadership vacuum at the OAS 
left by the U.S.
    The U.S. today seems to have lost interest in the OAS and 
is not exerting adequate and proper leadership in the 
organization.
    The OAS needs strong leadership from the largest and oldest 
democracy in the hemisphere. It's not about being heavy handed 
or trying to impose our way.
    It is about regularly and consistently playing a leadership 
role to try to forge the necessary consensus to make the 
organization work.
    Furthermore, the continuous new mandates and initiatives 
the organization takes up as well as the overly broad strategic 
goal of promoting development in the region may also distract 
the organization from properly addressing the regional 
challenges to democracy and human rights.
    The OAS manages projects and technical assistance programs 
in a wide array of issues. Many experts argue that these 
initiatives are well beyond the organization's expertise, and 
human and financial resources and could be better managed by a 
multilateral agency like the Inter-American Development Bank.
    Turning now to the Inter-American Commission on Human 
Rights and the Inter-American Court of Human Rights, I should 
say that something quite different is happening with these 
bodies.
    These forums are affiliated to the OAS but they're 
autonomous and act independently of member states. Both the 
Commission and Court have actually acted swiftly to condemn 
attacks to democracy and human rights in the region.
    The Commission has issued important reports and 
precautionary measures on human rights violates in Bolivia, 
Ecuador, and Venezuela, and the Court has issued strong 
sentences against rulings from Venezuela and courts controlled 
by the regime which violate the fundamental rights of its 
citizens.
    The problem, however, with these bodies is that they are 
compromising their credibility by often weighing in a myriad of 
issues that go beyond their mandate under treaty law and that 
are of the internal jurisdiction of member states.
    The Commission recently questioned the U.S. Government's 
decision to end temporary protected status for nationals from 
certain countries, calling on this Congress to provide them 
with legal status.
    In 2011, the Commission requested the Government of Brazil 
to halt work on a hydroelectric plant until it addressed 
concerns from indigenous communities.
    The Brazilian Government responded by suspending relations 
with the Commission as well as its funding to it, calling the 
request precipitous and unwarranted.
    The Court, for its part, has been issuing rulings and 
opinions not based on the text of the American Convention of 
Human Rights.
    Just last month, without any basis of the actual text of 
the convention, the Court issued an advisory opinion 
instructing member states to recognize same-sex marriage and 
gender identity.
    Disinformation in the internal affairs of member states 
have understandably caused great concern in the countries of 
the region and are perceived as an attempt against their 
sovereignty and constitutional order.
    The recent Court's advisory opinion on same-sex marriage 
became the principal issue in the general elections in Costa 
Rica, propelling to victory in the first round of the 
Presidential election the candidate of a small party who 
promised to withdraw Costa Rica from the Court.
    In the case of the Court, since we are not under its 
jurisdiction, the U.S. could demand that none of our funds are 
used to finance the Court until it goes back to working within 
the legal mandate and framework under which it was created.
    I thank you for the opportunity to testify on this 
important issue and will be happy to answer the questions that 
you may have.
    [The prepared statement of Mr. Aguilar follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
                              ----------                              

    Mr. Cook. Thank you very much.
    Mr. Quilter, you are now recognized.

     STATEMENT OF MR. PETER QUILTER (FORMER SECRETARY FOR 
  ADMINISTRATION AND FINANCE, ORGANIZATION OF AMERICAN STATES)

    Mr. Quilter. Chairman Cook, Ranking Member Sires, members 
of the distinguished subcommittee, thank you for the 
opportunity to return to testify today, this time on the OAS, 
its place in the foreign policy options of the United States, 
and its place in the region.
    I am not going to tell you that the organization is the 
premier forum for dialogue. I am not going to tell you it's the 
oldest regional organization around. I am not going to tell you 
that it's the only multilateral game in town, mostly because 
the two of you just told us that and you know it.
    What I will say is that we need it now more than ever, and 
by we, I mean the United States. Let me describe the 
neighborhood as I see it right now.
    Venezuela is swirling down an economic and political drain. 
Brazil and Peru are grappling with the result, and with epic 
levels of corruption in their political classes.
    Hondurans appear stuck with the results of an election most 
observers agree was stolen. The Caribbean area is struggling 
with the increasingly dire consequences of climate change and 
the Northern Triangle countries of Central America are being 
strangled by violence, drugs, and economic distress with the 
attendant destabilizing consequences on migration flows.
    Now, let me describe the U.S. relationship to this region 
right now. Secretary Tillerson just returned from his second 
trip to the neighborhood, intended basically to manage feelings 
of deep unease.
    Why? President Trump. Here are the highlights. He's pulled 
the U.S. out of the TPP. Obviously, several Latin American 
countries are part of it.
    He's threatened to exit from NAFTA, calling it the worst 
trade deal in history, with untold consequences for the 
economies of both Mexico and Canada, to say nothing of the U.S. 
itself.
    He has weaponized the immigration issue which, of course, 
has special resonance for Latin Americans and specifically 
targeted 200,000 immigrants here by ending TPS.
    This month, he appeared to threaten to cut off counter 
narcotics aid to our strongest allies in the counter narcotics 
effort.
    His budget released Monday appears to bear this out. And 
then there's the wall. The Gallup Organization has placed the 
approval of the United States and its President in this region 
in 2017 at 16 percent--one six.
    As someone else said, there's six elections in 2018 coming 
in this region, all of which are very important. The U.S. faces 
an unprecedented challenge and it faces it now.
    It needs a strong and functional multilateral forum to meet 
that challenge. Multilateralism in this context is the OAS. In 
my written testimony, I have a longer series of recommendations 
for action but I am going to highlight a few.
    The financial plight of the organization--I will say this 
because secretary generals don't like to say it. The OAS is 
operating today in the context of a full blown financial 
crisis.
    It is down 23 percent in its budget in real terms in the 
past 10 years. There is nothing left to cut. I was the guy who 
was trying to cut things for a couple of years.
    There is nothing left to cut. So they cut the staff. It's 
very easy to see that over time that will destroy the 
organization.
    Second, the OAS is a creature of foreign ministries, not 
Presidents. Effectively, that's creating a political ceiling 
for the organization. We need to get it out from under the 
foreign ministries.
    I think the way to do that is to tie it more directly with 
the summit process so that they formally answer to the 
Presidents and you should know that Venezuela is the implacable 
foe of that idea, and there's a reason why.
    Number three, the buildings--it's a pet peeve of mine--we 
know that the buildings like the beautiful one on 17th Street 
are, in fact, falling apart.
    They look beautiful, but they're falling apart. The OAS is 
carrying $30 million in deferred maintenance and they've been 
carrying it for years.
    The longer you don't maintain, the more expensive it gets. 
I believe the U.S. has a special responsibility because we are 
the host country.
    Number four, the secretary general should have one single 
term. Secretary General Almagro has said he will be a one-term 
secretary general. I give him a lot of credit for that. It has 
bolstered him politically. I believe the OAS should 
institutionalize that. No reelection.
    Summarizing, yes, concerted action is needed. Resources are 
needed in order to stand this organization back up. It is also 
likely that we will need some sort of action-forcing event.
    I think it's distinctly possible that the action-forcing 
event will be the fall of the Maduro government in Venezuela. 
That's going to happen.
    When it happens, Venezuela will need all the help it can 
get. The OAS will be the go-to organization. It needs to be 
strong and it needs to be ready.
    Thank you.
    [The prepared statement of Mr. Quilter follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Cook. Thank you very much. I will yield myself 5 
minutes for questions.
    You know, a lot of great points were raised there and just 
to let you gentlemen know, I am also on the NATO Parliament and 
it's--I felt like, wait a minute, I am at a NATO meeting right 
now.
    We are all going to try to agree on 29 countries where we 
are going, plus the other ones. It's very, very difficult when 
you have these multilateral groups in getting a consensus, and 
part of the reason we are doing this is, I think, we are 
looking for direction or maybe the words form the experts.
    I don't know if we can ever get there simply because of the 
complexity and the number of countries that are involved and 
the issues.
    I do agree that if we get down there in the weeds too much 
and we start lecturing or sermonizing certain countries about 
what is in their country there, I think we run the risk of 
countries just saying, we don't need this stuff anymore.
    They want to be part of this. They want to work together. 
And I am looking for solutions and, obviously, on how we can 
simply this where maybe we can at least have a new action plan 
to simplify this.
    Obviously, we don't even have our agencies there working 
together, let alone the countries, and it's going to impact on 
the budget and where we go so that our missions, what we want 
to accomplish are several--it's too important an organization 
to screw up.
    And so we are having this hearing today. We'll probably 
have more on this. How we, and whether we, can solve this 
problem in the future--I think were just one of many.
    But if this thing blows up, it's like NATO blowing up the 
U.N. I can go on and on and on. Yes, there's always going to be 
faults to this but I think if we don't meet and we don't get 
together--but I think we got to keep our topics very general, 
try and get a buy-in, a consensus as much as possible so we can 
attack some of these things, and with that consensus maybe we 
can get better funding for it.
    Any comments on my diatribe? Left you speechless.
    [Laughter.]
    Mr. Aguilar. Back to my statement, I agree with you. But 
that requires a high-level commitment from the administration 
and from future administrations to be actively involved in the 
OAS.
    I remember everyone saying there's many experts that say 
that for the past 15 to 20 years the U.S. hasn't been really 
been present, actively engaged.
    I think if we are involved in the process of high-level 
diplomacy at the OAS and the region, we may be able to forge 
the coalitions to be able to pass resolutions, for example, a 
resolution denouncing Venezuela.
    I think we've had an issue with the Caribbean countries. I 
think if we engage the Caribbean countries in a conversation to 
see how they can support us at the OAS, we may be able to 
create a consensus. I think that's happening. I think we are 
present there but I don't think we are having a leadership 
role.
    Mr. Cook. Well, I agree with you. I made this comment when 
I first took over this committee that we've kind of ignored the 
region for a variety of reasons, and it shows.
    Just like we are flip-flopping, whether it was Europe or 
whether it was the Far East or China. But I think because of 
all the issues that we've talked about, the number of 
countries, it's just too important to the United States to 
ignore and how we do that I think is going to be very, very 
difficult.
    A lot of us have been on different committees and 
everything else and it's easy to say one thing and then when 
you get together, hammering out a consensus.
    But I want to turn it over to Mr. Sires. You are now 
recognized.
    Mr. Sires. Thank you, Chairman.
    You know, over the years I've been very critical of the 
OAS, critical because, in reality, you know, they never spoke 
up about human rights abuses anywhere.
    I thought they were controlled by just a few countries, you 
know, which I think managed the OAS for their benefits, and we 
are seeing it today with Venezuela where Venezuela is, you 
know, blocking anything that the OAS wants to do.
    They get together with a couple of countries and, to me, 
it's like an organization that--where is its usefulness?
    In fact, can anybody tell me what is the most effective 
part of the OAS besides the guy living over here in Washington, 
DC, in a nice house?
    Mr. Quilter. I certainly agree that the United States has 
been punching below its weight in the organization for a very 
long time. It might be enough to say that we haven't had an 
Ambassador there since 2014.
    So I agree with Mr. Aguilar that we--that the U.S. needs to 
take a good hard look at why it's not punching at its weight.
    I would also agree with you that Venezuela is punching 
above its weight. They've put a lot of resources into their 
presence in the OAS.
    I mean, the guy who was Ambassador for the very longest 
time was the senior diplomat in the United States in any 
organization, including to the White House or to the U.N.
    They put him at the OAS. So they knew the game they were 
playing and the U.S. was apparently playing a different game. I 
think that's right.
    Mr. Melito. I do want to point out that in April 2017 
Venezuela indicated it's pulling out of the OAS--that it will 
take up to 2 years for that to be finalized. So it could change 
things.
    Mr. Aguilar. Two quick points. First of all, I think, in 
terms of our Government, there's an over-reliance on the 
secretary general.
    And I commend Secretary Almagro for speaking up. It is 
consistent with his additional duties on the Inter-American 
Democratic Charter. But that's not enough if there is no 
collective action from the organization.
    My second point is, in terms of bodies that are effective, 
I would argue that the Commission and the Court are effective 
when it comes to singling out violations of political rights, 
of freedom of the press in those left-leaning countries.
    Those countries have actually complained and have blasted 
the Commission and the Court. My concern is that those bodies 
that can be very effective are compromising their credibility 
when they're getting involved in issues for which they don't 
have a mandate.
    And this is a very important point. You know, I mentioned 
the recent case about same-sex marriage that was based on an 
opinion requested by the Government of Costa Rica.
    Look, I am not taking positions on this issue. What I am 
saying is that the principle of noninterference is a very 
important principle for the United States and for the countries 
of the region.
    If the Court starts issuing decisions on this type of 
issues that are of the internal competence of the countries, I 
think there's going to be a push back against the Commission 
and the Court at a time when we really need them to monitor the 
violations to fundamental human rights and to political rights.
    Mr. Sires. Well, look, I certainly commend Secretary 
Almagro. He's spoken up about the issues in Venezuela. You 
know, I've spoken to him. He's been very out there, much more 
than previous secretaries of the OAS.
    And I couldn't agree with you more that they should only 
serve one term, because I think what happens if they can 
serve--you know, they like to cozy up to these countries so 
they get reappointed, and I think that's a big problem with 
this organization.
    You have to have people there that want--you know, are able 
to speak, knowing that they don't have to run for anything 
else--you know, that they're there to do a job.
    And, quite frankly, I don't know if those changes would be 
made at the organization in the near future. It's just--I don't 
know if this organization is just, like, floating in the 
Caribbean and not getting anywhere. And there's a lot going on, 
you know, in all these countries.
    I mean, at one point, I thought that this organization 
should be disbanded. That's how, you know, upset I was with the 
organization. But I do think that they have a role, especially 
when it comes to human rights.
    You know, all those years with the human rights abuses in 
Cuba, they never spoke up. You know, and Cuba wasn't even a 
member at the time. They pulled out and they were controlling 
the organization, I think, through the surrogate countries.
    So, you know, sometimes when this country says, you know, 
maybe we shouldn't fund these people if they don't change their 
ways, there's some merit to that.
    I thank you.
    Mr. Cook. Mr. Yoho from Florida is recognized.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you 
gentlemen being here.
    Being from Florida, we are, obviously, very connected to 
that part of the world and very concerned about it.
    What I want to know is how do you make it better. I see OAS 
and then I see the other agencies with it and the other--was it 
three of them--IICA, PAHO, and PAIGH.
    Is there a dilution of the mission statement to where you 
have too many people trying to accomplish the same thing and 
they're not focused on one? They're all trying to reinvent the 
wheel. And with us paying 59.7 percent of the budget, the 
American taxpayers, I don't feel, are getting their benefit.
    You know, one of the main mission statements was to promote 
democracy and since 1980 and I see that failing. A lot of it is 
tenuous.
    How can we make that better if we are going to continue in 
this? And I take the same stance and kind of the attitude as 
Mr. Sires that I think it's a very ineffective agency and I 
think--I would like to hear what your thoughts are.
    And then I want to come back to you, Mr. Quilter, because 
you said some very interesting things I need to rebut.
    Mr. Quilter. Okay. I think the ideas about how to make this 
better are out there. They've been out there for a while.
    The Inter-American dialogue came out with a big report on 
precisely this issue today. I don't think that was an accident. 
I think it was timed for this hearing.
    I have a bunch of things in there that overlap a lot with 
the dialogue. The ideas are there. The issue is does anyone 
feel an urgent need to try to implement these things, and 
that's the question mark.
    I really think the U.S. has a huge role to play and they 
haven't done it. And by the way, that precedes the Trump 
administration--the U.S.' lethargy on this issue.
    Mr. Yoho. I'm glad to hear that, because you brought that 
up. What I see is a U.N. type organization in the Western 
Hemisphere that is as inept as the United Nations.
    We are putting all this money in there to promote these 
things, yet we see what's going on in Venezuela and you say 
Venezuela is punching above their weight and we see what's 
going on in Venezuela.
    You have got people dying there. Children are dying because 
the parents don't have food in the 21st century in the Western 
Hemisphere. Yet, I don't see people speaking out against that 
from the OAS and raising hell about that.
    And I thought you were a little bit disingenuous saying 
it's Trump's fault when you said there hasn't been a secretary 
general there since 2014. There's plenty of blame to go around, 
but to blame an administration, we can blame plenty of them, 
and we have dropped the attention in the Western Hemisphere 
probably for the last 20, 25 years. We've been distracted and, 
you know, I hear the human rights things, the LGBT, and, you 
know, same-sex marriage.
    Those are important issues. But when I have babies dying in 
hospitals from malnutrition in Venezuela in the 21st century, 
those are important issues. But I think these are bigger issues 
that we need to deal with, and to hang everything on these 
social issues versus the lives of people dying, I think we need 
to refocus the organization's attention.
    What are we trying to accomplish? Are we accomplishing 
democracy? You know, democracy has been bastardized around the 
world because there are so many facades of democracy.
    People have elections but they are fake elections. So it's 
not really a democratic process that we have cherished and have 
experienced for 200-plus years in this country.
    And so to move forward, if we are going to spend 59.45 
percent of the budget of the American taxpayer's money, I want 
a return for that and I know they want a return.
    Again, I came up here--I've only been here for going on my 
sixth year--to get rid of foreign aid, and I realize we can't 
do that.
    So let's reform it to where we get the bang out the buck 
that the American taxpayers expect, and that we develop these 
allies that are going to side with us, not side with a 
communist regime, not side with China, not side with Russia or 
Cuba, and if we are here we need to do a better job and I need 
to know what we need to do.
    Mr. Aguilar or Mr. Melito, go ahead. I have got about a 
minute left.
    Mr. Melito. One positive thing I will say is there has been 
a commitment to improve their oversight. So in 2015 the OAS 
replaced its IG, which the U.S. had a very short role in and 
they endorsed it.
    They do have a commitment to both internal oversight and 
external oversight. So these are recent things which I think 
would, hopefully, be built on as the years go forward.
    Mr. Aguilar. I just want to clarify in terms of the LGBT 
agenda. Look, I understand if, for the Commission or the Court, 
to ensure that there's no discrimination.
    Mr. Yoho. Right, and I agree with that.
    Mr. Aguilar. At least, that's part of the American 
convention. But my point is that the Court and the Commission 
are going beyond their treaty law mandate to go into issues for 
which they have no mandate.
    Take, for example, the issue of same-sex marriage, which is 
very controversial. It has been controversial in this country. 
That's an issue for the Argentinians, for the Costa Ricans, to 
decide through their constitutional system.
    When the Court gets involved in an issue like that, it 
loses credibility at a time when it should be really focussing 
on issues that have to do with democracy and human rights as 
clearly defined in the American Convention.
    Mr. Yoho. Right.
    Mr. Aguilar. So that is my concern and that's how the 
Commission and Court I think at this point are losing 
credibility.
    Mr. Yoho. When I see a house on fire and I need to get my 
family out, I don't need to stop and water the plants before I 
leave and that's--I think we need to refocus.
    Thank you, Mr. Chairman.
    Mr. Cook. Thank you very much.
    Mr. Meeks from New York is recognized.
    Mr. Meeks. Thank you, Mr. Chairman.
    And I want to first welcome Mr. Quilter back. You know, he 
did a great job here on the committee and then, of course, over 
at OAS and thank all of the witnesses for their testimony.
    I am listening to my colleagues, who I respect and admire. 
I come out a little bit on the other end. I don't think that we 
get rid of an organization. I am a firm believer in 
multilateral organizations--the U.N. being an example, the OAS 
being that.
    Are they perfect? I don't know anything that is perfect. I 
don't know any government, including mine, that is perfect. So 
there's room for us to improve, there's no question--to make 
sure that we are spending appropriately and that there is no 
waste.
    But sometimes you can do when you are cutting and you cut 
off your nose to spite your face because the very things that 
you want to accomplish when you cut a budget so strictly then 
there's nothing left and you can't accomplish anything.
    And I, for one, believe, as I look over history, though we 
have problems and there's no question about that in places like 
Venezuela.
    Democracy in Central and South America a few years ago 
wasn't--you know, you would name many more countries than the 
countries that we are naming now. There was not any, you know, 
democratic elections.
    So, to me, what I see on the Western Hemisphere but 
particularly in Central and South America is thriving 
democracies with the exception of a few, and we should not 
terminate and/or eliminate something because you have a few 
that are not doing what we want them to do.
    In fact, we should then figure out, you know, and 
understand that, you know, yes, I want to make sure that the 
United States is getting its bang for the money.
    But that does not mean that the United States can come, 
whether it's the U.N. or the OAS, and just dictate this is what 
in our best interests without consideration of what some of the 
other nations in these multilateral organizations consider is 
in their best interests, and then the dialogue and the 
conversation that goes on after that.
    And so I don't think that we are wasting our money when we 
are investing in the OAS. In fact, with so many elections 
coming up, I would like to know what the role that you see of 
the OAS in the coming and the pending elections that are coming 
up to try to make sure that they, and the countries that have 
had--even though, you know, I know Brazil and Peru they've had 
problems recently with reference to corruption.
    But the elections themselves, you know, so you have got to 
make sure--and they've got elections coming up what role with 
the OAS play to try to make sure that there's true democracy 
taking place.
    Mr. Quilter.
    Mr. Quilter. Thank you. Good to see you again, Mr. Meeks.
    I think the Human Rights Commission and Court are the 
jewels of the crown of the OAS. I think that is correct.
    But another thing the OAS does well, and it does some 
things not well--and we can talk about those--is election 
monitoring, and election monitoring doesn't only mean, you 
know, seeing if an election is--election monitoring is a 
complicated thing and the OAS has a lot of history doing it and 
they do it quite well.
    They will be or should be front and center on all of these 
elections. Let me say something about Venezuela, because I've 
heard a lot about judging the OAS because the Venezuela 
situation has not been solved by the OAS.
    Let me make a comment about that. The OAS, like any 
multilateral organization, is a roiling cauldron of country 
interests, momentary circumstances, et cetera.
    For a country like the U.S., the trick is to utilize or to 
try to get as much done within each of these--each of these--
with each of these tools at it can.
    I actually think the OAS has done a decent amount of things 
on Venezuela. No, it hasn't solved Venezuela but it has done a 
decent amount of things.
    Just yesterday, the Inter-American Commission came out with 
a report on Venezuela saying all the things you think it should 
say. As we know, the secretary general has been quite vocal 
about Venezuela.
    There is--I am going to correct you--there is a pretty 
decent one single resolution on Venezuela condemning Venezuela 
quite well in mid-2017.
    Perhaps that's as far as we could go as the U.S. on that 
issue. So you put a momentary stop on that and you look at 
other issues and try and keep advancing the call. I think that 
is the way to utilize these organizations.
    Mr. Meeks. Anybody else?
    So let me just ask this question then. Do you believe or 
are there other countries in the hemisphere that you think are 
utilizing their influence at the OAS better than the United 
States?
    Mr. Aguilar. Well, yes. I think we've, as I've said in my 
statement, I think we are leaving a vacuum. So a country--will 
Venezuela now decide to withdraw from the OAS?
    But they have been very effective with their partners 
Nicaragua, Ecuador, and Bolivia to ensure that very little 
happens. And it's a consensus-based system.
    So only a few states can band together and ensure that 
nothing happens--that they don't have the consensus to be able 
to actually pass anything that would actually have any real 
impact.
    Mr. Meeks. I am out of time. But my next question would 
have been then what should we be doing, in your estimation, as 
the U.S. to have a better bang.
    But I will leave that.
    Mr. Cook. Thank you very much.
    Maybe your colleague to the right might yield time but I am 
not going to get involved in that. My good friend from New York 
is recognized.
    Mr. Espaillat. Thank you, Chairman Cook, Ranking Member 
Sires.
    Much has been said about the vacuum of leadership that has 
been left open by the United States for decades and decades, 
and we may think that the main beneficiary of such vacuum are 
countries like Venezuela.
    But I submit to you that I believe it's China. I think 
China will come in and fill that vacuum and build roads and 
bridges and dams and tunnels and major infrastructure projects 
that are necessary and critical to the economies of these 
countries, much like Venezuela did with Petrocaribe in the 
Caribbean when oil was very expensive and can cripple the 
economy of those small countries.
    So, in essence, what you see is an allegiance of those 
countries based on pure economic interests, very much the way 
we do with some countries in the Middle East where we support a 
dictator, a ruthless leader, because they may benefit our crude 
political interests or economic interests there. Those 
countries chose to align themselves, at least temporarily if 
not permanently, with troubling governments like the one in 
Venezuela.
    So we must regain the ability to invest in the region so 
that we could, again, fill that vacuum and we do not yield that 
vacuum to a country that is already very much present there, 
and investing heavily and bringing with it all the negative 
issues such as currency manipulation, an assault of 
intellectual property rights, and the rest to our hemisphere.
    And so I think that we are really--Almagro has been very 
active. In fact, he has been demonizing Venezuela and Ecuador. 
He is persona non grata in those countries. He has been a 
strong supporter of bringing democracy and stability to 
Venezuela.
    But, unfortunately, he could not get the votes. We could 
not get the votes because we have abandoned the region in a 
dramatic way in the last 40 if not 60 years.
    So my question is to Mr. Aguilar. He has really emphasized 
the issue of LGBT rights and same-sex marriage. Let me remind 
you that same-sex marriage is already legal in Colombia, 
Brazil, Uruguay, Argentina, and although not entirely in 
Mexico, in Mexico City, as well as my madre patria, Spain.
    So I just want to ask you, if you don't think that 
violating--the high number of homicides or violent vicious 
crimes against gay people in those countries or the patterns of 
discrimination, preventing gay people from getting jobs or any 
other sort of discrimination that is rampant and 
institutionalized in those countries maybe because even of 
their religious background, if that doesn't constitute a reason 
for the court to have a strong decision on whether or not that 
is a troubling situation in those countries.
    Mr. Aguilar. Thank you for the question. I think it's a 
very valid question, and I think I was trying to make that 
point that those are the type of issues that the Commission and 
the Court should get involved in.
    When there is discrimination and harassment against people 
because of their sexual orientation, clearly, that's a 
violation of the American convention.
    Now, that is different from the issue of same-sex marriage. 
You mentioned several countries--Colombia, Argentina, Uruguay--
where it is legal, and that's fine.
    They've gone through their political process, through their 
constitutional system like the United States has and have 
legalized same-sex marriage. But it's up to them. It's not for 
the court to make that determination for them, and this is the 
problem.
    When we've had a court, just a few weeks ago, come up with 
a decision imposing on 20 countries under the jurisdiction, 
some of them--most of them who haven't legalized same-sex 
marriage telling them, now you have to, that's for those 
countries to decide.
    Mr. Espaillat. Well, I think it's very much connected. I 
think it is very much connected that if people of the same sex 
holding hands down a street are viciously beaten because 
they're married, or killed, and there is a vicious pattern of 
that, I think that that constitutes a very big violation of 
their rights.
    And so, Mr. Quilter, maybe you would like to add to that?
    Mr. Quilter. Yes, I would. I have a very, very different 
take on this specific issue and that is I am a lawyer--it is a 
normal thing for a court to either be pushing on the arc of a 
particular issue within a society or maybe sometimes lagging.
    I don't see this as a problem for the Inter-American Court 
at all. I think that what is being said here is that it may 
have been impolitic or may have been out step. But we all know 
that the arc of this issue bends toward more protections for 
the LGBT community, not less. That is where it's all going.
    The fact that the court is a little bit ahead of a 
particular country really--that's not a reason for them not to 
be playing in that sandbox.
    Mr. Espaillat. Let me just conclude, Mr. Chairman, by 
saying that I very much feel that this current budget, as 
presented by President Trump, further aggravates the 
reliability and functionability of the OAS and that we must 
move in a different direction.
    Thank you.
    Mr. Cook. Thank you.
    I recognize Mrs. Torres from California.
    Mrs. Torres. Thank you, thank you, Chairman Cook and 
Ranking Member Sires, for holding this very important hearing.
    This is very--definitely a timely hearing, and I agree that 
the OAS is very important to U.S. interest in Latin America.
    Sadly, over the course of the past year, we have lost a lot 
of influence throughout Latin America and the Caribbean. There 
have been a lot of missteps by this administration.
    Just to name a few, President Trump offended Mexico and 
many countries in the region not just during the campaign but 
after the campaign.
    He rattled our allies and played into Maduro's hand when he 
threatened military intervention in Venezuela. What do you 
think that statements like that could have an impact on our 
ability to advance our interests in the region and the OAS in 
particular?
    Meanwhile, his Secretary of State didn't even bother to 
show up at the OAS General Assembly in Cancun and missed an 
important opportunity to build consensus on the issue of 
Venezuela.
    So what kind of message do you think that sent? In 
Honduras, we have lost a lot of credibility on the issue of 
democracy when the State Department failed to call out an 
election for what it was, and if I recall correctly, it was the 
OAS only that stood up and said there are certainly a lot of 
discrepancies and we need to ensure that if we truly believe in 
democracy that we follow our own advice.
    It is unfortunate that it seems to me, from what I've heard 
today, it is democracy of convenience. I mean, we've talked a 
lot about many other issues and hungry kids absolutely are a 
priority to me. But women being imprisoned simply because they 
have had a miscarriage is also important to me.
    So, of course, it doesn't help that we still, after more 
than a year, don't have an Assistant Secretary for the Western 
Hemisphere or an Ambassador at the OAS. And now that we have a 
nominee for Ambassador to Barbados, who is a peddler for 
conspiracy theories, if President Trump went to the Summit of 
the Americas, what kind of reception do you think that he will 
receive?
    These failures do not help advance U.S. interests in the 
Western Hemisphere or the OAS. I would like to hear your 
comments on those three questions.
    Mr. Quilter.
    Mr. Quilter. Thank you. There's a lot there but I will--
summits. Summits are tricky even when everybody loves you.
    In Cartagena, President Obama got an earful on both U.S.' 
Cuba policy and our drug policy. It was, for him, a bit of a 
disaster, even when he was riding high.
    What's going to happen with President Trump? I don't know. 
Fasten your seatbelts, I think, is the way to think about that.
    Tillerson in Cancun--that was malpractice. We were just a 
few votes away and we know that for--to send in the most 
important guy you got is the way you close the deal and that 
didn't happen.
    And then later they said, well, the OAS is useless because 
it was two votes short, which is a little disingenuous.
    Finally, Secretary Tillerson went on his recent voyage and 
one of the things he was doing--he was doing good stuff on 
Venezuela, I think, by the way. I have to give him that.
    But the other thing he was doing is warning that China 
was--the presence of China economically was spilling over into 
a political presence and that was a problem. That too is 
disingenuous.
    What he's in fact saying is that there's a leadership 
vacuum in Latin America and China is filling it. Well, whose 
fault is that?
    Mr. Aguilar. Just briefly.
    I would say I would agree with you that Mr. Trump's 
comments often make it very difficult to work with our partners 
in the region.
    Having said that, it is disingenuous to think that these 
problems that we are facing now are just because of Mr. Trump. 
I think for a long time we haven't been paying attention to----
    Mrs. Torres. I didn't say that the problems that we are 
facing in Latin America are solely the fault of the current 
President.
    I did say that the lack of leadership currently in this 
administration has actually made things worse in the region.
    Mr. Aguilar. I agree.
    Mrs. Torres. Don't misquote me.
    Mr. Aguilar. Well, it wasn't my intention.
    But there was certainly, I would argue, a lack of 
leadership under the Obama administration at the OAS.
    Mrs. Torres. The Obama administration is not currently in a 
position to make a change so----
    Mr. Aguilar. No, but I think----
    Mrs. Torres [continuing]. In moving forward, Mr. Aguilar, I 
would like for you to speak on current issues----
    Mr. Aguilar. I think it's----
    Mrs. Torres [continuing]. And current time frame, today.
    Mr. Aguilar. I appreciate your point but I think it's good 
when we look at Latin America to look at the historical 
perspective just to ensure that we are objective and we can 
make some sound comments.
    Mrs. Torres. Historical perspective doesn't help unless 
you're talking about--when you're referring to Latinos that 
look like me as drug dealers and drug pushers and prostitutes.
    Mr. Aguilar. I've never agreed with----
    Mrs. Torres. My time is up and I yield back.
    Mr. Cook. Thank you.
    Mr. Smith is recognized, from New Jersey.
    Mr. Smith. Chairman, first of all, I am sorry I was late. I 
was chairing my own hearing on China that ran over, especially 
with the witnesses.
    But I just want to thank our witnesses. I am sorry I missed 
it all, but I will go back and look at the record.
    I have worked on human rights. I've been in Congress for 38 
years and, frankly, we have had under many administrations a 
lack of focus on human rights.
    I was in Bolivia working, joined by Lidia Velasquez, 
against Evo Morales and, frankly, the last administration did 
nothing to help this American named Jacob Ostreicher who was 
being held in Palmasola Prison.
    I went to Palmasola Prison twice, went to the court 
hearings, and our Embassy would not help him. I even asked it--
requested it. If Jacob Ostreicher, an American from New York--
and I am not from New York, I am from Jersey, like my good 
friend, Albio Sires, and Albio was very helpful on that as 
well--would you at least provide him asylum, an American within 
our own Embassy and they told me no.
    I couldn't believe it. I held four congressional hearings 
on it. So there was a lack of focus on Bolivia. There was a 
lack of focus on Venezuela, and when it came to Cuba, you know, 
how many hearings did we have on Cuba, Albio? One after the 
other after the other.
    There was no sense of wanting to extradite a cop killer who 
continues to run free. We made that--we said there ought to be 
conditionality before things--you know, the rapprochement with 
Cuba occurs say, these are the nonnegotiables that we have to 
have, and none of that happened.
    And, you know, what got me into Cuba years ago was Armando 
Valladares' book, ``Against All Hope,'' which exposed the 
facade of what's going on in Cuba and it continues to this day.
    Political prisoners who are tortured. I have tried for 25 
years to get into Cuba. I tried recently going down to the 
Embassy and I said, ``I would like to go to Cuba. I would like 
to be with different dissidents,'' and you know what I was 
told? ``We tell you who you can't see.'' And I said, ``Do 
American Members of Congress agree to that'' and they told me 
yes. That's the Ambassador.
    Piero Tozzi and I went down there with the hope of going 
and okay, if there is a changed attitude in Cuba, well, let's 
test it, and I can't get a visa to go to Cuba.
    There's four places where I couldn't get a visa. One I just 
got changed. Russia is one. The other is Cuba, and the other 
two have switched. I've been able to go to China and to Belarus 
where I worked on human rights issues as well.
    So, again, I want to thank the chairman for having this 
hearing. The OAS could do far more in holding people to 
account, in my humble opinion, and Albio Sires and I have 
worked for so long on Cuban human rights, which have always 
been in the back bench--always been, you know, an afterthought 
on the part--particularly of the last administration.
    So, you know, Cuba was taken off the--and I will end with 
this--the Tier 3 listing for traffickers. They were on there 
because of labor trafficking abuses, which they claim don't 
happen, and because of their feckless response on sex 
trafficking.
    I am the author of the Trafficking Victims Protection Act 
of 2000 and fourth--three--one or two reauthorizations and 
another--but all focused on human trafficking.
    There is nothing in the behavior of the Cuban dictatorship 
that warranted an upgrade except a belief by the last 
administration that, you know, if we just act nice and take 
them off.
    Human rights have to be--whatever authoritarian, left or 
right, who cares? If they commit human rights abuses and 
they're being tortured or, in this case, being trafficked, it 
doesn't matter what style of dictatorship you're dealing with, 
and they gave them an artificial upgrade, which I denounced.
    Did a press conference on it--nobody covered it, and I find 
that to be appalling. Unfortunately, they're still on the 
upgraded list. This administration did not change that.
    I have appealed to the administration to do so in the TIP 
report when it comes out on or about mid-June because the 
situation there is awful. Then what they've done to our Embassy 
personnel is off the scales in terms of diplomatic breaches.
    So, again, I want to thank all of you for your testimony 
and, Chairman, I thank you. I am sorry I didn't get into the 
full flow of the hearing but I was doing my own, and I 
apologize.
    Mr. Cook. Well, I want to thank you very much.
    You know, I was going to ask a couple of final questions 
but I just want to make a comment.
    Obviously, I think we need another follow-up here, not--
because some of the issues here are--you know, we kind of 
skirted around them but I think we've got to break it down and 
some of these different aspects of it.
    Yes, I think the Organization of American States has got 
some problems, and now we are going to fix it? We are not going 
to fix it today, for a variety of reasons, and contrary to some 
of the other testimony, I am one of those ones that think you 
have to bring the states together.
    You're not always going to agree. It's tough. It's tough 
doing this stuff and, you know, I probably said it in here. You 
know, Bismarck said making good policy is like watching them 
make sausage.
    It's not very much fun but it's something you have to do 
when you have a lot of different countries and you have a lot 
of different people, and I think a lot of it is everybody--
there's enough blame to go around and I am optimistic that we 
are finally looking south.
    We are looking at our neighbors. I think they've been 
ignored far too long, and, you know, the money issue I think 
reflects the fact that a lot of people don't understand how 
critical the area is or how critical some of the issues that we 
address.
    And each and every person here has probably got an axe to 
grind or they get excited about it, and that passion I think 
warrants another hearing on how we can do it.
    I don't know whether you gentlemen would agree with that 
bottom line that I am taking away that we kind of scratched the 
surface here and maybe we can build on that.
    We've got to, and maybe our agenda would be more inclusive 
on maybe suggestions or questions on how we can repair this 
including many of the issues that were raised today.
    So my guidance to everybody based upon what we learned 
today is maybe we can go forth and find out certain things and 
how we can propose and maybe fix it in our own committee.
    So with that, this meeting is now adjourned.
    Thank you very much for your patience.
    [Whereupon, at 3:25 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


             Material Submitted for the Record
          
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                  [all]
                                  
                                  
                                  
                                  
                                  
</pre></body></html>
